                                  n
                                                                             i    r

                                                                                 -'
                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL

      .                                                OFFICE OF INVESTIGATIONS

       o                                       CLOSEOUT MEMORANDUM

     Case Number: A-05060037                                                                    Page 1 of 1



           We received an allegation that the subject's NSF proposal1contained an idea that was stolen
           (intellectual theft) from the complainant's2 earlier NSF awarded proposal.3 We contacted the
           complainant who provided us with more detailed information abqut the allegation.
                                                i



           The complainant explained that the alleged stolen idea involved 5 very small part of the subject's                  .
           proposal. The complainant further 6xplained:that the subject originally published thk basis for            ,   =*


           the idea. In fact, the complainant cited the subject in his own proposal as the source of the
           promising method associated with tkie idea.

           We noted that the subject has been working in the theoretical field associated with thejallegedly * -
           stolen idea for almost 20 years.4 We compared one of the subject's earlier NSF awards,5 granted "
                                                                                                              .* .
           2-years prior, with the complainant's awarded proposal and with the subject's most recent + L.         ;.
                                                                                                                  J



           proposal that al1egedly.contained theistole idea. We observed that the subject:^ earlier NSF.jGIt ,, : +
           award was similar to his,most recentcNSF proposal. Both contain very broad theoretical%;,:,,  . .-)   Ti..


           discussions:aboutthe idea in questioh as well as many other ideas. Similarly, the complainant's~i ! .          a



           proposal contained a very broad theoretical discussion about the idea in question as well*asother I : .*-.
           ideas. We concluded that the information and ideas in the complainant's proposal, in the
           subject's award and in the subject's recent proposal all showed that both researchers are -
           progressively developing theoretical work about the same theoretical problem. Both described
           their research ideas and future directions for their research in very broad terms with numerous
           different possible directions and outcomes possible as a result of their research. We found no
           evidence that the subject had incorporated any ideas from the complainant's award
           inappropriately.

           This case is closed and no further action will be taken.




I'                                                                                                                             I

 NSF OIG Form 2 (1 1/02)
